Review of Select Time-and-
Materials and Labor-Hour
Contracts




                                               December 22, 2010
                                               Report No. 487
Review Conducted by Regis and Associates, PC
                                                   UNITED STATES
                                 SECURITIES AND EXCHANGE COMMISSION
                                             WASHINGTON, D.C.     20S49


      O~~,c£ O~

' ..... "CTO" .. "H" ..... L
                                          MEMORANDUM
                                                December 22, 2010

                To:            Sharon Sheehan, Associate Executive Director, Office of
                                Administrative Services (OAS)

                From:          H. David Kotz, Inspector General, Office of Inspector Genera Lj;  1Jk::
                Subject:       Review of Select Time·and-Materials and Labor-Hour Contracts,
                               Report No. 487

                This memorandum transmits the U.S. Securities and Exchange Commission
                Office of Inspector Generars (OIG) final report detailing the results of our review
                of select time-and·materials and labor-hour contracts. This review was
                conducted as part of our continuous effort to assess the management of the
                Commission's programs and operations and as a part of our annual audit plan.

                The final report contains six recommendations. which if implemented, should
                strengthen OAS operations. OAS concurred with all six recommendations. Your
                written response to the draft report is induded in its entirety in Appendix V.

                Within the next 45 days, please provide the OIG with a written corrective action
                plan that is designed to address the agreed upon recommendations. The
                corrective action plan should indude information such as the responsible
                official/point of contact, timeframes for completing the required actions, and
                milestones identifying how you will address the recommendations cited in this
                report.

                Should you have any questions regarding this report, please do not hesitate to
                contact me. We appreciate the courtesy and cooperation that you and your staff
                extended to our staff and contractors during this review.

                Attachment

                cc: Kayla J. Gillan, Deputy Chief of Staff, Office of the Chairman
                    Luis A. Aguilar, Commissioner
                    Troy A. Paredes, Commissioner
                    Elisse Walter, Commissioner
                    Diego T. Ruiz, Executive Director, Office of the Executive Director
                    Kenneth A. Johnson, Chief Financial Officer, Office of Financial Management
                    Juliana Basile, Assistant Director, Office of Administrative Services, Office of
                       Acquisitions




   Review of Time-and-Materials and Labor-Hour Contracts                              December 22, 2010
   Report No. 487
                                                        ii
Review of Select Time-and-Materials and
Labor-Hour Contracts

                                 Executive Summary
Background. The U.S. Securities and Exchange Commission (SEC or
Commission), Office of Inspector General (OIG) contracted with Regis &
Associates, PC, (Regis), Independent Public Accountants, to conduct a review
of select time-and-materials (TM) and labor-hour (LH) contracts to determine
whether payments on the contracts were properly supported. The Federal
Acquisition Regulation (FAR) allows TM/LH contracts to be utilized only when it
is not possible to estimate accurately the extent of the work, or to anticipate
costs with any reasonable degree of confidence, and requires appropriate
government oversight of contractor performance to provide reasonable
assurance that the contractor uses efficient and effective methods and cost
controls. 1

The two TM/LH contracts Regis reviewed were:

       •   SEC Contract No. SECHQ1-06-C-0436, awarded to XBRL US, Inc.; and
       •   SEC Contract No. SECHQ1-07-C-0313, awarded to Dozier
           Technologies, Inc.

The SEC awarded Contract Number SECHQ1-06-C-0436 to XBRL US, Inc., to
develop a U.S. Generally Accepted Accounting Principles Financial Statement
Taxonomy, as well as other deliverables described in the contract. The
principal objective of this taxonomy is to provide a basis for public companies
to report their financial information in an interactive data format. The SEC
awarded this TM contract on March 5, 2007 and issued six modifications that
extended the performance period of the contract through June 28, 2008, and
increased the contract amount from $5,905,420 to $11,889,462. 2

Contract Number SECHQ1-07-C-0313 was awarded to Dozier Technologies,
Inc., on September 7, 2007, with a base value of approximately $1,525,157,
with options to increase the value to $3,500,000. This LH contract was to
provide contracting support services and to assist in the administration of a
new procurement system. The SEC exercised the options in the form of 15
modifications to the full value of $3,500,000.



1
    Federal Acquisition Regulation 48 C.F.R. 16.601(c)(1).
2
    The March 2007 contract definitized an earlier letter contract executed on September 22, 2006.
Review of Time-and-Materials and Labor-Hour Contracts                                   December 22, 2010
Report No. 487
                                                       iii
Objectives. The overall objective of this review was to determine whether
payments on the contractor invoices were properly supported and goods and
services conformed to contractual requirements. The specific objectives of the
review included determining whether:

   1) The qualifications of employees billed to the contracts, by labor
      category, met the contractual qualification requirements for the
      positions;

   2) Assigned Contracting Officer Technical Representatives (COTR)
      properly reviewed contractors’ invoices, corresponding timesheets, and
      other necessary supporting documentation, to ensure that costs were
      allowable, reasonable, and allocable to the contracts; and that the rates
      and amounts billed did not exceed contract rates and ceiling amounts;
      and

   3) The SEC adequately monitored all aspects of current and past
      contractors’ performance to ensure that goods and services provided
      conformed to contractual requirements.

Prior OIG Audit Report. OIG Report No. 471, Audit of the Office of
Acquisitions’ Procurement and Contract Management Functions, issued
September 25, 2009, contained 10 recommendations to strengthen
management controls over OA’s contracting and procurement functions.

Results. The review identified a number of deficiencies concerning the TM/LH
contracts related to documentation, qualifications of SEC staff responsible for
the day-to-day oversight of the XBRL US, Inc. contract, and inclusion of labor
category qualifications in the XBRL US, Inc. contract. These controls help to
ensure that the government’s surveillance of contractor performance provides
reasonable assurance that efficient methods and effective cost controls are
used in TM/LH contracts.

Specifically, the review found that the acceptance of deliverables was not
adequately documented. Although the assigned technical point of contact
(TPOC) for the subject contract stated that a panel made up of individuals from
the Division of Corporation Finance, the Office of the Chief Accountant, and the
Office of Information Technology reviewed and accepted or rejected
deliverables for the contract, the TPOC could not provide documentation to
substantiate this review process for accepting deliverables for the subject
contract which was valued in excess of $11 million.

Also, the review found that the XBRL US, Inc. contract was managed daily by
an SEC employee that did not have the requisite contract training. We found
that the Contracting Officer appointed an SEC employee as the TPOC for the

Review of Time-and-Materials and Labor-Hour Contracts            December 22, 2010
Report No. 487
                                            iv
XBRL US, Inc. contract, who essentially served as an IAO, but did not appoint
a COTR, though the contract was (1) highly technical in nature, (2) a time-and-
materials type contract, requiring monitoring of hours and approval of Other
Direct Costs including travel, and (3) valued at almost $6 million at the time of
award. Additionally, we found that the TPOC performed COTR related duties
such as overseeing the contract on a daily basis by providing guidance and
direction to the contractor and approving monthly invoices. Without proper
training, an individual assisting the Contracting Officer in the management of a
complex contract may not be aware of all of the requirements that he or she is
obligated to follow. As a result, there is a significant risk that the Commission’s
policies and procedures may not be followed and that value may not have been
received for services provided.

Further, for the Dozier Technologies, Inc. contract, the review found
inconsistent documentation support for various invoices, including eight
invoices totaling approximately $156,532 that appeared unsupported by
timekeeping records or similar documentation. Two of these invoices submitted
by the contractor, totaling approximately $12,398, did not contain any
supporting documentation other than summary information on the invoice
including the labor category, labor rate and total hours billed. Six of these
invoices could only be substantiated with sign-in sheets provided by OAS for
some of the billed labor amounts. The supporting documentation for these
eight invoices did not contain the same level of support as the other invoices
submitted by the contractor. The sum of $156,532 represents questioned
costs identified by the OIG in this review.

Additionally, the XBRL US, Inc. contract did not include the qualifications for
labor categories that were charged to the contract, as required by the FAR.
We found that the SEC did not include in the terms of the contract
qualifications for the labor categories upon which hourly charges would be
based (e.g., Taxonomist I, Architect I, Subject Matter Expert, Project Support
Specialist). In February 2007, FAR §16.6, Time-and-Materials and Labor-Hour
Contracts, expanded the definition of “hourly rate” to the “rate(s) prescribed in
the contract for payment of labor that meets the labor category
qualifications.…” Additionally, FAR §52.232-7, Payments under Time-and-
Materials and Labor-Hour Contracts, which was incorporated by reference in
the subject contract, states in part that “the Contractor shall substantiate
vouchers (including any subcontractor hours reimbursed at the hourly rate in
the schedule) by evidence of actual payment and by… Records that verify the
employees meet the qualifications for the labor categories specified in the
contract….” Within the first seven months of the contract, the SEC executed
three modifications which increased the number of labor categories from 11 to
23 and increased the funding from $5,905,420 to $11,889,461. These
modifications did not include the specifications for additional labor categories.


Review of Time-and-Materials and Labor-Hour Contracts              December 22, 2010
Report No. 487
                                            v
Summary of Recommendations. We recommend:

   1. The Office of Acquisitions should develop a standardized inspection and
      acceptance form or similar medium to document the acceptance of
      goods and services for all deliverables and such documentation should
      include information regarding who accepted the deliverables and
      whether deliverables met applicable criteria and quality standards in the
      contract.

   2. The Office of Acquisitions should revise or update the appropriate
      Securities and Exchange Commission Regulations to explicitly require
      use of a standardized inspection and acceptance form or similar
      medium for all deliverables.

   3. The Office of Acquisitions should review active contracts to ensure that
      agency contracts are appropriately assigned a Contracting Officer
      Technical Representative or Inspection and Acceptance Official.

   4. Within one month of the issuance of the final report, the Office of
      Acquisitions should issue guidance to the acquisition staff and approving
      officials such as Contracting Officer’s Technical Representatives and
      Inspection and Acceptance Officers, regarding the proper procedures for
      review, approval, and documenting contractor payments for time-and-
      material and labor-hour contracts.

   5. The Office of Acquisitions, in consultation with the Office of Financial
      Management should review the $156,532 in unsupported payments
      made to Dozier Technologies, Inc., to determine what, if any corrective
      actions are warranted (e.g., requiring the contractor to provide adequate
      support, refund monies for unsupported costs, etc.).

   6. The Office of Acquisitions should ensure that all future time-and-
      materials and labor-hour contracts contain applicable labor category
      qualifications in accordance with the Federal Acquisition Regulation.




Review of Time-and-Materials and Labor-Hour Contracts            December 22, 2010
Report No. 487
                                            vi
                           TABLE OF CONTENTS

Executive Summary ......................................................................................................iii

Table of Contents ........................................................................................................vii

Background and Objectives
     Background ....................................................................................................... 1
     Objectives .......................................................................................................... 3

Findings and Recommendations
     Finding 1: Documented Evidence For the Acceptance of Deliverables is
     Needed .............................................................................................................. 4
                    Recommendation 1....................................................................... 5
                    Recommendation 2....................................................................... 5

         Finding 2: OA Did Not Ensure the Assignment of a Qualified
         Administrator For the XBRL Contract ................................................................. 6
                      Recommendation 3....................................................................... 8

         Finding 3: Some Payments for the Dozier Technologies, Inc. Contract
         Were Not Adequately Supported........................................................................ 8
                      Recommendation 4..................................................................... 10
                      Recommendation 5..................................................................... 11

         Finding 4: XBRL Contract Did Not Specify Requirements for Various
         Labor Categories.............................................................................................. 11
                      Recommendation 6..................................................................... 13

Appendices
    Appendix I: Acronyms. .................................................................................... 14
    Appendix II: Scope and Methodology .............................................................. 15
    Appendix III: Criteria ........................................................................................ 17
    Appendix IV: List of Recommendations .......................................................... 18
    Appendix V: Management Comments ............................................................. 19
    Appendix VI: OIG Response to Management’s Comments............................. 21
    Appendix VII: Schedule of Questioned Costs.................................................. 22

Tables
     Table1: Unsupported Invoices for Dozier Technologies, Inc. ............................ 9
     Table 2: Dozier Technologies Questioned Costs ............................................ 22




Review of Time-and-Materials and Labor-Hour Contracts                                        December 22, 2010
Report No. 487
                                                         vii
                Background and Objectives

Background
The Office of Administrative Services (OAS), Office of Acquisitions (OA) is
responsible for the U.S. Securities and Exchange Commission (SEC or
Commission) procurement and contract activities and processes, which are
governed by the Federal Acquisition Regulation (FAR). While OA oversees the
procurement responsibilities, the SEC divisions and offices are responsible for
preparing initial procurement requisitions and statements of work. OA consists
of four primary contracting branches, each of which is headed by a Branch
Chief. Each branch is staffed with Contracting Officers, Contract Specialists,
and support personnel.

The SEC’s Office of Inspector General (OIG) contracted with Regis &
Associates, PC, (Regis), Independent Public Accountants, to provide auditing
services related to the SEC’s procurement and contract activities. The contract
consisted of two phases. During Phase I, conducted in August 2008, Regis
performed a review of OA’s procurement activities and work processes and the
OIG issued Audit Report No. 471, Audit of the Office of Acquisitions’
Procurement and Contract Management Functions, dated September 25,
2009. For Phase II, covered by this report, Regis conducted a review of select
Time-and-Materials (TM) and Labor-Hour (LH) contracts to determine whether
payments on the contracts were properly supported. The two TM/LH contracts
reviewed were:

   •   SEC Contract No. SECHQ1-06-C-0436, awarded to XBRL US, Inc.; and
   •   SEC Contract No. SECHQ1-07-C-0313, awarded to Dozier
       Technologies, Inc.

The SEC awarded Contract Number SECHQ1-06-C-0436, to XBRL US, Inc.,
on March 5, 2007, for $5,905,420. This TM contract was to develop U.S.
General Accepted Accounting Principles (GAAP) Financial Statement
Taxonomy, as well as other deliverables described in the contract. The
principal objective of this taxonomy is to provide a basis for public companies
to report their financial information in an interactive data format and ultimately
provide disclosures in a more usable format for investors, analysts, and the
SEC. By using the U.S. GAAP Taxonomy to “tag” different kinds of data in
financial reports, the information companies file with the SEC can be made
much easier to find and therefore, easier to analyze. For example, specific
items in a financial statement, such as net income or gross sales, are given
computer-readable labels based on the U.S. GAAP Financial Statement
Taxonomy (dictionary) of commonly used accounting terms.


Review of Time-and-Materials and Labor-Hour Contracts               December 22, 2010
Report No. 487
                                            1
The initial performance period of the subject contract was March 5, 2007,
through December 31, 2007. 3 The SEC issued six modifications that extended
the performance period of the contract through June 28, 2008, and increased
the contract amount from $5,905,420 to $11,889,462.

Contract Number SECHQ1-07-C-0313 was awarded to Dozier Technologies,
Inc., on September 7, 2007, with a base value of approximately $1,525,157,
with options to increase the value to $3,500,000. This LH contract was to
provide contracting support services and to assist in the administration of a
new procurement system. The SEC exercised the options in the form of 15
modifications to the full value of $3,500,000.

TM/LH contracts provide for the acquisition of supplies and services at a
certain number of direct labor hours priced at specified hourly rates and the
cost of any materials used. 4 With TM/LH contracts, the government pays for a
certain number of labor hours (and amount of materials), rather than for a
completed product or service. 5 The contractor is paid for the hours applied to
the task, regardless of the outcome, and the contractor does not have to
complete the work successfully to collect full payment. 6 Also, while the
contractor agrees to use its best efforts to complete the work, the contractor
does not have to continue performance if doing so would cause it to exceed the
ceiling price established in the contract, unless the contracting officer agrees in
writing to increase the ceiling. 7

According to the FAR, TM/LH contracts provide no positive profit incentive to
the contractor for cost control or labor efficiency, 8 as opposed to fixed-price
contracts, which pay a specific price for supplies or services regardless of the
number of hours or amount of materials used. 9 Consequently, the FAR allows
TM/LH contracts only when it is not possible to estimate accurately the extent
of the work, or to anticipate costs with any reasonable degree of confidence,
and require appropriate government oversight of contractor performance to
provide reasonable assurance that the contractor uses efficient and effective
methods and cost controls. 10




3
  The March 2007 contract definitized an earlier letter contract executed on September 22, 2006.
4
  Report of the Acquisition Advisory Panel to the Office of Federal Procurement Policy and the U.S.
Congress, January 2007, p. 58.
5
  Id. at 59.
6
  Id.
7
  Id.
8
  Federal Acquisition Regulation 48 C.F.R.16.601(c)(1).
9
  Report of the Acquisition Advisory Panel to the Office of Federal Procurement Policy and the U.S.
Congress, January 2007, p. 58.
10
   Federal Acquisition Regulation 48 C.F.R. 16.601(c)(1).
Review of Time-and-Materials and Labor-Hour Contracts                                 December 22, 2010
Report No. 487
                                                     2
Objectives
The overall objective of this review was to determine whether payments on the
contractor invoices were properly supported and goods and services
conformed to contractual requirements. The specific objectives of the review
included determining whether:

   1) The qualifications of employees billed to the contracts, by labor
      category, met the contractual qualification requirements for the
      positions;

   2) Assigned Contracting Officer Technical Representatives (COTR)
      properly reviewed contractors’ invoices, corresponding timesheets, and
      other necessary supporting documentation, to ensure that costs were
      allowable, reasonable, and allocable to the contracts, and that the rates
      and amounts billed did not exceed contract rates and ceiling amounts;
      and

   3) The SEC adequately monitored all aspects of current and past
      contractors’ performance to ensure that goods and services provided
      conformed to contractual requirements.




Review of Time-and-Materials and Labor-Hour Contracts            December 22, 2010
Report No. 487
                                            3
            Findings and Recommendations

Finding 1: Documented Evidence For the
Acceptance of Deliverables is Needed
        The SEC does not use documents, such as deliverable
        acceptance forms, or monitoring checklists, to evidence the
        acceptance of deliverables.

We determined that the SEC did not have a requirement explicitly stating that the
receipt of contract deliverables should be documented, nor does it provide a
standard form to be utilized for such acceptance.

The FAR Subpart 46.5, Acceptance, § 46.501, General, states that “Acceptance
constitutes acknowledgment that the services conform with applicable contract
quality and quantity requirements, except as provided in this subpart and subject
to other terms and conditions of the contract. . . . Acceptance shall ordinarily be
evidenced by execution of an acceptance certificate or an inspection or receiving
report form or commercial shipping document/packing list.”

During our review of the XBRL US, Inc. contract, Section C.2, Description of
Requirements, we found that there were 16 contract deliverables, including the
following items:

   1)   Taxonomy Architecture and Design Document;
   2)   Project Plan & Schedule;
   3)   Taxonomy Development;
   4)   Maintenance and Support Plan;
   5)   End User Guidance; and
   6)   Integration Plan.

Additionally, Section E.3, Inspection and Acceptance Criteria, of the subject
contract set forth in a table format specific requirements that these deliverables
had to satisfy in order to be accepted. For example, the Taxonomy Integration
Plan was required to be an MS Word document and in accordance with Section
C.2.1.6 of the contract, the plan had to “clearly set forth a strategy to ensure that
the U.S. GAAP Taxonomies would be able to integrate with existing and future
taxonomies beyond the U.S. GAAP financial reporting that may be developed."
Further, the Taxonomy Maintenance and Support Plan was required to “clearly
set forth the maintenance and support strategy of all U.S. GAAP Taxonomies
and define routine update processes in accordance with section C.2.1.4.” Other
deliverables had similar requirements as to form and content.


Review of Time-and-Materials and Labor-Hour Contracts               December 22, 2010
Report No. 487
                                            4
Although the assigned technical point of contact (TPOC) for the subject contract
stated that a panel made up of individuals from the Division of Corporation
Finance, the Office of the Chief Accountant, and the Office of Information
Technology reviewed and accepted or rejected deliverables for the contract, the
TPOC could not provide documentation to substantiate this review process for
accepting deliverables for the subject contract which was valued in excess of $11
million.

Without a mechanism and an explicit requirement to document acceptance of
contract deliverables, there is no record of whether deliverables were received,
accepted, met acceptance criteria or quality standards, or who reviewed the
deliverables. Further, due to the fact that contractors performing TM/LH
contracts are paid for the hours applied to the task regardless of the outcome,
without acceptance documentation, the SEC does not have the ability to ensure
they are receiving appropriate value for dollars expended.

Therefore, OA should require that the acceptance of deliverables for goods and
services are documented as described below.

       Recommendation 1:

       The Office of Acquisitions should develop a standardized inspection and
       acceptance form or similar medium to document the acceptance of goods
       and services for all deliverables and such documentation should include
       information regarding who accepted the deliverables and whether
       deliverables met applicable criteria and quality standards in the contract.

       Management Comments. OAS concurred with the recommendation.
       See Appendix V for management’s full comments.

       OIG Analysis. We are pleased that OAS concurred with this
       recommendation.

       Recommendation 2:

       The Office of Acquisitions should revise or update the appropriate
       Securities and Exchange Commission Regulations to explicitly require use
       of a standardized inspection and acceptance form or similar medium for all
       deliverables.

       Management Comments. OAS concurred with the recommendation.
       See Appendix V for management’s full comments.

       OIG Analysis. We are pleased that OAS concurred with this
       recommendation.


Review of Time-and-Materials and Labor-Hour Contracts             December 22, 2010
Report No. 487
                                            5
Finding 2: OA Did Not Ensure the
Assignment of a Qualified Administrator For
the XBRL Contract
      The XBRL US, Inc. contract was managed daily by an SEC
      employee that did not have the requisite contract training.

We found that the SEC did not follow Commission policies and procedures for
assigning a Contracting Officer Technical Representative (COTR) or Inspection
and Acceptance Official (IAO) to the subject contract.

The SEC Regulation 10-15, COTR and IAO, dated November 4, 2004, states
that “Contracting Officers (CO) shall appoint individuals as COTRs considering:
the complexity and dollar value of the acquisition; the COTR candidate’s
experience, training, and education; and recommendation by the candidate’s
supervisor.”

Additionally, SEC Regulation 10-15 states that an IAO is appointed for contracts
and purchase orders which do not have an appointed COTR. An IAO’s
responsibilities are limited to the acceptance or rejection of the products or
services being delivered or performed by the contractor. IAOs are also required
to take eight hours of contract-related training. 11 SEC Regulation 10-15 also
states that the training “should cover FAR Part 46 (Quality Assurance)
contracting principles, and the roles and responsibilities of individuals in the
contracting process.” 12

Duties beyond the scope of an IAO may only be performed by a COTR, who
must meet specific training requirements as follows:

           A minimum of 40 hours of contract management training
           shall be completed in addition to COTR training. This
           training shall cover the "basics" of contracting with
           emphasis on the following topics, to provide to the COTR
           candidate an understanding of the contracting process
           and the individual roles and responsibilities:

                 (a) Introduction to Contracting, with an emphasis on
                 contract types, principles of contracting, and contract
                 financing;
                 (b) Acquisition Planning;


11
   SECR 10-15: Contracting Officer’s Technical Representative (COTR) and Inspection and Acceptance
Official (IAO), dated November 4, 2004, Section C-Inspection and Acceptance Officials, Paragraph 4:
Training.
12
   Id.
Review of Time-and-Materials and Labor-Hour Contracts                             December 22, 2010
Report No. 487
                                                  6
                 (c) Contract Law; and
                 (d) Basic Contract Administration. 13

Additionally, COTRs are required to take a minimum of 24 hours of refresher or
advanced contract training courses that contribute to effective contract
management every two years. 14

We found that the Contracting Officer appointed an SEC employee as the TPOC
for the XBRL US, Inc. contract, who essentially served as an IAO, but did not
appoint a COTR, though the contract was (1) highly technical in nature, (2) a
time-and-materials type contract, requiring monitoring of hours and approval of
Other Direct Costs including travel, and (3) valued at almost $6 million at the time
of award. Additionally, we found that the TPOC performed COTR related duties
such as overseeing the contract on a daily basis by providing guidance and
direction to the contractor and approving monthly invoices. We also noted that
the TPOC did not have any COTR or comparable contract-related training.
Moreover, the TPOC was assigned to oversee a contract involving a start-up
small business that was performing its first government contract. The roles and
responsibilities assigned to the TPOC required expertise beyond that of an IAO
and should have been assigned to an individual(s) with the required training for
designation as a COTR. The assigned TPOC did not possess these
qualifications. A COTR assigned to the contract with sufficient training and time
to effectively monitor contract performance may have reduced the substantial
costs on the project.

In order to adhere to the training requirements set forth by the SEC, individuals
must receive structured training in competencies that are specific to the
management and execution of contracts. Without proper training, an individual
assisting the Contracting Officer in the management of a complex contract may
not be aware of all of the requirements that he or she is obligated to follow. As a
result, there is a significant risk that the Commission’s policies and procedures
may not be followed and that value may not have been received for services
provided.

We noted that since the award of the XBRL US, Inc. contract in 2007, OA has
substantially enhanced its policies and procedures addressing the appointment,
termination, and responsibilities of contract administration positions including
COTRs, IAOs, and points of contact (POC) through the issuance of a revised
SECR 10-5. 15 OA’s current policy requires COTRs to be appointed to all future
contracts that have a value of $100,000 or greater or are labor-hours or time-
and-materials pricing type contracts as they require monitoring of hours and
13
   SECR 10-15: Contracting Officer’s Technical Representative (COTR) and Inspection and Acceptance
Official (IAO), dated November 4, 2004, Section B-Contracting Officer Technical Representative (COTRs),
Paragraph 4: COTR Requirements.
14
   Id.
15
   SECR 10-15, Contract Administration Positions: Contracting Officer’s Technical Representative (COTR)
Inspection and Acceptance Official (IAO), and Point of Contact (POC), Revised August 12, 2009.
Review of Time-and-Materials and Labor-Hour Contracts                              December 22, 2010
Report No. 487
                                                   7
approval of overtime and Other Direct Costs including travel. We believe that all
active contracts, especially multi-year contracts that may have been awarded
several years ago should have COTRs, IAOs and POCs appointed in
accordance with this current policy.

       Recommendation 3:

       The Office of Acquisitions should review active contracts to ensure that
       agency contracts are appropriately assigned a Contracting Officer
       Technical Representative or Inspection and Acceptance Official.

       Management Comments. OAS concurred with the recommendation.
       See Appendix V for management’s full comments.

       OIG Analysis. We are pleased that OAS concurred with this
       recommendation.


Finding 3: Some Payments for the Dozier
Technologies, Inc. Contract Were Not
Adequately Supported
       There were inconsistencies in the types of records or
       documentation provided as support for various invoices
       submitted by the contractor and approved by the SEC,
       including eight invoices totaling approximately $156,532, that
       were unsupported by timekeeping records or similar
       documentation.

We reviewed the contractor invoices from the Dozier Technologies, Inc. and
XBRL US, Inc. contracts to determine whether the payments made were
supported by documentation to substantiate the billable amounts on each
invoice.

FAR § 52.212-4, Contract Terms and Conditions-Commercial Items, states, in
part, that “(D) When requested by the Contracting Officer or the authorized
representative, the Contractor shall substantiate invoices (including any
subcontractor hours reimbursed at the hourly rate in the schedule) by evidence of
actual payment, individual daily job timecards, records that verify the employees
meet the qualifications for the labor categories specified in the contract, or other
substantiation specified in the contract.”

Further, FAR § 4.803, Contents of Contract Files, states, “The following are
examples of the records normally contained, if applicable, in contract files: … (c)
Paying office contract file. (1) Copy of the contract and any modifications. (2)
Review of Time-and-Materials and Labor-Hour Contracts              December 22, 2010
Report No. 487
                                            8
Bills, invoices, vouchers, and supporting documents. (3) Record of payments or
receipts. (4) Other pertinent documents.” (emphasis added)

With regard to the Dozier Technologies, Inc. contract, we reviewed 55 invoices
that were submitted by the contractor, approved for payment by an OAS
representative, and paid by the Office of Financial Management (OFM) and
found varying degrees of supporting documentation to substantiate vendor
invoices. In fact, we found that eight invoices, totaling $156,532, did not contain
the same level of supporting documentation that was provided for the other 47
invoices reviewed (i.e., certified timesheets). See details in Table 1 below.

Table 1: Unsupported Invoices for Dozier Technologies, Inc.
   Invoice Number         Invoice           Total          Questioned Costs Explanation
                            Date         Questioned
                                           Costs
  1. IV-000001OCT07      10/05/2007       $9,584.37     Invoice has no supporting
                                                        documentation.
  2. IV-000002           10/23/2007       $2,813.76     Invoice has no supporting
                                                        documentation.
  3. IV-000009NOV07      11/01/2007       $9,820.58     Two labor categories were billed on the
                                                        invoice; however, sign-in sheets were
                                                        provided for only one employee, and
                                                        timesheets were not provided for any of
                                                        the contractor’s employees.
  4. IV-000010-NOV       11/01/2007      $12,464.64     Two labor categories were billed on the
                                                        invoice; however, sign-in sheets were
                                                        provided for only one employee, and
                                                        timesheets were not provided for any of
                                                        the contractor’s employees.
  5. IV-000012           12/01/2007      $27,505.41     Only sign-in sheets, not timesheets were
                                                        provided to support the costs incurred
                                                        on the invoice.
  6. IV-000013           12/16/2007      $26,491.53     Only sign-in sheets, not timesheets were
                                                        provided to support the costs incurred
                                                        on the invoice.
  7. IV-000014           01/01/2008      $29,819.00     Only sign-in sheets, not timesheets were
                                                        provided to support the costs incurred
                                                        on the invoice.
  8. IV-000015A          02/06/2008      $38,032.47     Only sign-in sheets, not timesheets were
                                                        provided to support the costs incurred
                                                        on the invoice.
  Total Questioned Costs                 $156,531.76
Source: Generated by Regis & Associates, PC

As illustrated in the table above, eight invoices submitted by the contractor were
missing supporting documentation. Two of these invoices submitted by the
contractor totaling approximately $12,398 did not contain any supporting
documentation other than summary information on the invoice including the labor
category, labor rate and total hours billed (Items 1 and 2 in Table 1). Six of these
invoices could only be substantiated with sign-in sheets provided by OAS for
some of the billed labor amounts (Items 3-8 in Table 1). These sign-in sheets
Review of Time-and-Materials and Labor-Hour Contracts                      December 22, 2010
Report No. 487
                                              9
required the contract employee to note their sign-in and sign-out times and
contained the contractor’s initials. The supporting documentation for these eight
invoices, however, did not contain the same level of support that the remaining
47 invoices submitted by the contractor contained (i.e., timesheets signed by the
contractor and approved by OA and a Dozier Technologies, Inc. representative).

Additionally, we note that in OIG Report No. 471, Audit of the Office of
Acquisitions’ Procurement and Contract Management Functions, dated
September 25, 2009, we found similar documentation problems related to TM/LH
contracts, and made a recommendation to OA to re-educate the acquisition
workforce on the FAR requirements related to TM/LH contracts by specifically
addressing proper documentation to support invoice problems. While OAS
concurred with this recommendation more than a year ago, it has not been
implemented, and the problems remain.

The inconsistencies in the supporting documentation provided by the contractor,
and lack of procedures to ensure uniform review and payment of invoices by
contract administration personnel increases the risk that invoices may not have
been properly supported in accordance with FAR requirements before they were
approved and paid by the SEC. As a result, there are no assurances that the
Commission has properly paid the approximately $156,532 in invoices.

Accordingly, it is necessary for OA, in conjunction with OFM, to establish
procedures for review, approval, and documentation of contractor payments for
TM/LH type contracts. In addition, OA should make an affirmative determination
as to whether the approximately $156,532 in questioned costs identified in Table
1 were properly paid and take necessary corrective actions, as described below.

We noted that in reference to XBRL US, Inc. contract, we reviewed the Defense
Contract Audit Agency Report (DCAA) report dated December 15, 2009 with
regard to the report it issued as a result of its review of XBRL US, Inc.’s cost
incurred and billed from September 2006 through June 2008. In this analysis,
DCAA questioned $1,057 of travel costs incurred under the contract.

       Recommendation 4:

       Within one month of the issuance of the final report, the Office of
       Acquisitions should issue guidance to the acquisition staff and approving
       officials such as Contracting Officer’s Technical Representatives and
       Inspection and Acceptance Officers, regarding the proper procedures for
       review, approval, and documenting contractor payments for time-and-
       material and labor-hour contracts.

       Management Comments. OAS concurred with this recommendation.
       See Appendix V for management’s full comments.


Review of Time-and-Materials and Labor-Hour Contracts            December 22, 2010
Report No. 487
                                            10
       OIG Analysis. We are pleased that OAS concurred with this
       recommendation.

       Recommendation 5:

       The Office of Acquisitions, in consultation with the Office of Financial
       Management should review the $156,532 in unsupported payments made
       to Dozier Technologies, Inc., to determine what, if any, corrective actions
       are warranted (e.g., requiring the contractor to provide adequate support,
       refund monies for unsupported costs, etc.).

       Management Comments. OAS concurred with the recommendation.
       See Appendix V for management’s full comments.

       OIG Analysis. We are pleased that OAS concurred with this
       recommendation.

Finding 4: XBRL Contract Did Not Specify
Requirements for Various Labor Categories
       The XBRL US, Inc. contract generally did not specify the required
       qualifications for various labor categories charged to the contract as
       required by the FAR.

In February 2007, FAR §16.6, Time-and-Materials and Labor-Hour Contracts,
expanded the definition of “hourly rate” to the “rate(s) prescribed in the contract
for payment of labor that meets the labor category qualifications of a labor
category specified in the contract that are:

       (1) Performed by the contractor;
       (2) Performed by the subcontractors; or
       (3) Transferred between divisions, subsidiaries, or affiliates of the
           contractor under a common control.”

Additionally, FAR §52.232-7, Payments under Time-and-Materials and Labor-
Hour Contracts, which was incorporated by reference in the subject contract,
states in part that “the Contractor shall substantiate vouchers (including any
subcontractor hours reimbursed at the hourly rate in the schedule) by evidence of
actual payment and by:

   •   Individual daily job timekeeping records;
   •   Records that verify the employees meet the qualifications for the labor
       categories specified in the contract (emphasis added); or
   •   Other substantiation approved by the contracting officer.” (emphasis
       added)
Review of Time-and-Materials and Labor-Hour Contracts               December 22, 2010
Report No. 487
                                            11
We found that although the SEC entered into a contract with XBRL US, Inc. in
March 2007, definitizing an earlier letter contract, the SEC did not include in the
terms of the contract any qualifications for the included 11 labor categories (e.g.,
Taxonomist I, Architect I, Subject Matter Expert, Project Support Specialist). For
example, the contract did not specify minimum educational requirements, years
of experience, or required skills (e.g., C++ programming experience) for
personnel assigned to the project. Likewise, there were no requirements
provided for the various labor categories in the Project Management Plan
developed by the contractor or in the contractor’s proposals.

In addition, Paragraph H.1 of the subject contract states that “XBRL US, Inc.
shall provide the skilled personnel, including all management and supervisory
staff required for the effective and efficient performance of this contract.” This
paragraph further states that throughout the life of this contract, XBRL US, Inc.
shall identify to the Contracting Officer the project lead and technical lead for the
work and shall give the Contracting Officer the opportunity to present views about
those personnel. Therefore, the contract required only that the contractor
provide credential information about the project lead and the technical lead and
provide the SEC with an opportunity to review the information and present their
views about these personnel and any replacements.

Due to the lack of specificity in the contract with respect to labor categories and
qualifications, the SEC encountered problems with reconciliation of contractor
invoices. In an undated letter sent to the Contracting Officer, the President and
CEO of XBRL US, Inc. addressed questions raised by the SEC regarding the
appropriateness of reimbursing invoices that did not match the rates for the labor
categories that were in effect under the contract at the time the work was
performed. 16 In its lengthy response, XBRL US, Inc. stated in part that as they
built their team to perform the contract, it became apparent almost immediately
that the labor categories and rates set forth in the contract were not adequate.
XBRL US, Inc. further stated that the broad labor categories were not sufficiently
granular to enable the hiring of personnel and consultants at rates that would be
optimal from the perspective of lowering costs and/or to be able to engage
individuals with the necessary skill sets. It also stated that by subdividing the
labor categories and creating new labor categories, XBRL US, Inc. could better
match skill sets and professional competencies with an appropriate rate and
better manage costs. The letter further stated that SEC officials repeatedly told
XBRL US, Inc. to focus on getting the work done and that paperwork and
administrative process could catch up later. Consequently, XBRL US, Inc. asked
that the SEC reimburse the questioned costs by giving retroactive effect to the
contract modifications.



16
  Undated letter from the President and CEO, XBRL US, Inc., Washington, D.C., addressed to OA’s
Contracting Officer, U.S. Securities and Exchange Commission, Alexandria, VA, Re: Reimbursement of
Certain Costs Incurred in Developing the U.S. GAAP Financial Statement Taxonomy.
Review of Time-and-Materials and Labor-Hour Contracts                            December 22, 2010
Report No. 487
                                                 12
Also, we noted that within the first seven months of the contract (March 5, 2007-
September 21, 2007), the SEC executed three modifications which increased the
number of labor categories from 11 to 23 and increased funding from $5,905,420
to $11,889,461. None of the three modifications, however, included
specifications for the additional labor categories.

We believe this situation demonstrates a lack of proper procurement planning
and execution by the SEC by not adequately performing requirement analyses,
defining the scope of work, and clarifying the labor qualifications for the various
labor categories contained in the contract and related modifications, resulting in a
substantial escalation of contract costs. Because DCAA performed a detailed
review of XBRL US, Inc.’s cost incurred and billed from September 2006 through
June 2008, our review did not include re-examining labor costs, however, we
believe that OAS should ensure that all contracts contain appropriate labor
category qualifications in accordance with the FAR.

       Recommendation 6:

       The Office of Acquisitions should ensure that all future time-and-materials
       and labor-hour contracts contain applicable labor category qualifications in
       accordance with the Federal Acquisition Regulation.

       Management Comments. OAS concurred with the recommendation.
       See Appendix V for management’s full comments.

       OIG Analysis. We are pleased that OAS concurred with this
       recommendation.




Review of Time-and-Materials and Labor-Hour Contracts              December 22, 2010
Report No. 487
                                            13
                                                                        Appendix I


                                    Acronyms

COTR                          Contracting Officer’s Technical Representative
DCAA                          Defense Contract Audit Agency
FAR                           Federal Acquisition Regulation
GAAP                          Generally Accepted Accounting Principles
IAO                           Inspection and Acceptance Official
LH                            Labor Hours
OA                            Office of Acquisitions
OAS                           Office of Administrative Services
OFM                           Office of Financial Management
OIG                           Office of Inspector General
POC                           Point of Contact
Regis                         Regis & Associates, PC
SEC or Commission             U.S. Securities and Exchange Commission
TM                            Time-and-Materials
TPOC                          Technical Point of Contact




Review of Time-and-Materials and Labor-Hour Contracts              December 22, 2010
Report No. 487
                                            14
                                                                    Appendix II


                       Scope and Methodology

Scope: SEC OIG contracted with Regis to conduct a review of two Time-and-
Materials and Labor-Hour contracts. The two contracts reviewed were:

   •   SEC Contract No. SECHQ1-06-C-0436, awarded to XBRL US, Inc.; and
   •   SEC Contract No. SECHQ1-07-C-0313, awarded to Dozier Technologies,
       Inc.

SEC awarded Contract Number SECHQ1-06-C-0436, to XBRL US, Inc., on
March 5, 2007, in the amount of $5,905,420. This contract was to develop, on a
Time-and-Materials basis, U.S. GAAP Financial Statement Taxonomy, as well as
other deliverables described within the contract. The initial performance period
of the contract was September 22, 2006, through December 31, 2007. SEC
issued six modifications, thereby extending the performance period for the
contract through June 28, 2008, and increasing the contract amount from
$5,905,420 to $11,889,462.

Contract Number SECHQ1-07-C-0313, was awarded to Dozier Technologies,
Inc., on September 7, 2007, in the amount of $1,525,156.71. This contract was
to perform contracting support services and to assist in the administration of a
new procurement system. The SEC issued fifteen modifications, increasing the
contract value by approximately, $2,000,000, from $1,525,156.71 to $3,500,000.
Regis conducted the review from May 24, 2010 through August 17, 2010, using
procedures approved by the OIG.

Methodology: To meet the objective of ensuring the qualifications of employees
billed to the contracts, by labor category, met the contractual qualification
requirements for the positions, Regis obtained the contract files for Contract
Number SECHQ1-06-C-0436, awarded to XBRL US, Inc. and Contract Number
SECHQ1-07-C-0313, awarded to Dozier Technologies, Inc. Further, to meet the
objective pertaining to the COTRs proper review of the contractors’ invoices,
timesheets, etc., and the SEC’s adequately monitoring of current and past
contractor’s performance, Regis obtained documentation from the contract files
as well as documentation related to contractors’ invoices and payments. We
reviewed this documentation to determine the categories of personnel and total
payments authorized and paid under each contract. Regis conducted interviews
with personnel from OAS, OA, and OFM who were associated with both the
XBRL US, Inc. and Dozier Technologies, Inc. contracts. Also, Regis obtained
and reviewed relevant SEC regulations and policies to determine whether there
was compliance with these policies.




Review of Time-and-Materials and Labor-Hour Contracts           December 22, 2010
Report No. 487
                                            15
                                                                     Appendix II

We obtained and reviewed resumes and qualifications of key contractor
personnel that were assigned to the contracts. We obtained and reviewed
Obligation History Reports for the contracts, which detail the amounts invoiced by
the contractors, and paid by SEC, during the period covered by our review. We
also obtained and reviewed contractors’ invoices, and supporting documentation,
for the period covered by our review.

Management Controls: Our review of the contract files for the XBRL US, Inc.
and Dozier awards included gaining an understanding of internal controls over
the contracting process, as required by FAR and by SEC regulations. We noted
whether there was adherence to these controls.




Review of Time-and-Materials and Labor-Hour Contracts            December 22, 2010
Report No. 487
                                            16
                                                                     Appendix III


                                      Criteria

Federal Acquisition Regulation. Establishes uniform policies and procedures
for acquisition by all executive agencies. The latest revision became effective on
July 23, 2010.

SEC Regulation 10-15. (Revised November 4, 2004) Discusses roles and
responsibilities of Contracting Officers’ Technical Representatives and
Inspection and Acceptance Officials.

Office of Management and Budget A-122, Cost Principles for Nonprofit
Organizations, May 10, 2004. Establishes principles for determining costs of
grants, contracts and other agreements with non-profit organizations.




Review of Time-and-Materials and Labor-Hour Contracts            December 22, 2010
Report No. 487
                                            17
                                                                     Appendix IV


                      List of Recommendations

Recommendation 1:

The Office of Acquisitions should develop a standardized inspection and
acceptance form or similar medium to document the acceptance of goods and
services for all deliverables and such documentation should include information
regarding who accepted the deliverables and whether deliverables met
applicable criteria and quality standards in the contract.

Recommendation 2:

The Office of Acquisitions should revise or update the appropriate Securities and
Exchange Commission Regulations to explicitly require use of a standardized
inspection and acceptance form or similar medium for all deliverables.

Recommendation 3:

The Office of Acquisitions should review active contracts to ensure that agency
contracts are appropriately assigned a Contracting Officer Technical
Representative or Inspection and Acceptance Official.

Recommendation 4:

Within one month of the issuance of the final report, the Office of Acquisitions
should issue guidance to the acquisition staff and approving officials such as
Contracting Officer’s Technical Representatives and Inspection and Acceptance
Officers, regarding the proper procedures for review, approval, and documenting
contractor payments for time-and-material and labor-hour contracts.

Recommendation 5:

The Office of Acquisitions, in consultation with the Office of Financial
Management should review the $156,532 in unsupported payments made to
Dozier Technologies, Inc., to determine what, if any corrective actions are
warranted (e.g., requiring the contractor to provide adequate support, refund
monies for unsupported costs, etc.).

Recommendation 6:

The Office of Acquisitions should ensure that all future time-and-materials and
labor-hour contracts contain applicable labor category qualifications in
accordance with the Federal Acquisition Regulation.


Review of Time-and-Materials and Labor-Hour Contracts            December 22, 2010
Report No. 487
                                            18
                                                                                             Appendix V


                          Management Comments




                                            MEMORANDUM

                                            December 21.2010


         TO:            H. David Kotz
                        Inspector General

         FROM:          Sharon Sheehan      fl.-.- fl... ,I,
                        Associate Executive Director
                        Office ofAdministrative Services

         SUBJECT:       OAS Management Response to Draft Report No. 487, Review of
                        Time-and-Materials and Labor-Hour Contracts

         This n:iemorandum is in response to the Office of Inspector General's Draft Report No.
         487. Review ofTime-and-Materials and Labor-Hour Contracts. Thank you fur the
         opportunity to review and respond to this report. We concur with the six
         recoIDIilendations presented in the report and have begun taking appropriate steps to
         implement them.

         Recommendadon 1:

         OAS concurs. The Office of Acquisitions (OA) will develop a furm to be used by
         aCquisition personnel, including Contracting Officer Technical Representatives (COTRs).
         to indicate inspection and acceptance ofcontractor deliverables.

         Recommendadon 2:

         OAS concurs. OAS will revise operating procedures (OP) 10-17 Time-and-Material and
         Labor-Hour Contracts to require the new fonn fur inspection and acceptance.

         Recommendadon 3:

         OAS concurs. OA maintains a list ofcontracts and associated COTRs or lAOs. As part of
         OAS oversight. contracts are being reviewed to ensure appropriate assignment ofCOTRs
         and lAOs.

         Recommendadon 4:
         OAS concurs. SECR 10-17. Contract Award and Oversight ofTime-and-Materials and
         Labor-hour Contracts, is in the review cycle. The regulation addresses contract
         surveillance and payment J'equirements fur Time-lind-Materials and Labor-Hour
         contracts. Ifthe regulation is not approved within the one month timeframe specified in
         the recommendation, OA will issue interim guidance in the furm ofa News./lash.




Review of Time-and-Materials and Labor-Hour Contracts                                  December 22, 2010
Report No. 487
                                                    19
                                                                                                Appendix V




             Recommendation 5:

             OAS concurs. OA. in consultation with the Office ofFinancial Management (OFM), will
             review payments made under the initial eight invoices ofthe Dozier contract to ensure
             that overpayJilents were not made.

             Recommendation 6:

             OAS concurs. While ·the FAR does not require that labor qualifications be part ofthe
             con*ract, it does mandate that the contractor provide records that veritY the employees
             meet the qualifications fur the contracted labor categories. OA will require such records.




.




    Review of Time-and-Materials and Labor-Hour Contracts                                  December 22, 2010
    Report No. 487
                                                       20
                                                                   Appendix VI


      OIG Response to Management’s Comments

OAS concurred with all six recommendations addressed to their office and
indicated that they would take action to implement all of the recommendations.

We believe that OAS’ proposed actions are responsive to our findings and we
are pleased that they have already initiated actions to implement some of the
report’s recommendations. Once all of the recommendations are fully
implemented, we believe that the improvements will help strengthen oversight of
time-and-materials and labor-hour contracts.




Review of Time-and-Materials and Labor-Hour Contracts           December 22, 2010
Report No. 487
                                            21
                                                                     Appendix VII


                  Schedule of Questioned Costs

                  Table 2: Dozier Technologies Questioned Costs
                                Questioned Costs
                   Unsupported Invoices for Dozier      $156,532
                   Technologies, Inc.
                   Total                                $156,532
                  Source: Developed by OIG




Review of Time-and-Materials and Labor-Hour Contracts              December 22, 2010
Report No. 487
                                             22
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
